-   May 10,2005

                                          @
Infrastructure and Environment
Defense Information Systems Agency
Data Call Submissions and Internal
Control Processes for Base Realignment
and Closure 2005 @-2005-070)




             Department of Defense
            Office of Inspector General
                                          -
 Quality             Integrity        Accountability
  Additional Copies

  To request additional copies of this report, contact Mr. Bruce A. Burton at
  703-604-9071 (DSN 664-9071) or Ms. Dianna J. Pearson at 703-604-9063
  (DSN 664-9063).

  Suggestions for Audits

  To suggest ideas for or to request audits, contact Audit Followup and Technical
  Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                  ODIG-AUD ( A m : AFTS Audit Suggestions)
                Department of Defense Office of the Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                Base Realignment and Closure
COBRA               Cost of Base Realignment Actions
DlSA                Defense Information Systems Agency
DoD OIG             Department of Defense Office of Inspector General
H&SA                Headquarters and Support Activities
ICP                 Internal Control Plan
JCSG                Joint Cross-Service Group
JPAT 7              Joint Process Action Team Criterion Number 7
OSIL-               Office of the Secretary of Defense
                                     -          -   -
                                                                    --

                                                                            -   -
                             INSPECTORGENERAL
                             DEPARTMENT OF DEFENSE
                             - -

                               MI    ARMY NAWDRIVE-
                          ARLINGTON. VIRGINIA 22202-4704




                                                                              May 10,2005
MEMORANDUM FOR DIRECTOR, DEFENSE INFORMATlON SYSTEMS AGENCY

           r       on Defense Infomation Systems Agency Data Call Submissions
                Intend Control Proceases for Basc Rdignmcat and Clwun 2005
            (Report Project No. D-2005-070)

       We me providing this nport for infomation and use. No written response to this
nport is requid, and none was received. Themfore, m am ublishing this report in W
form. We pedonned the audit in response to a reqwt from.i e Under Secraary of
Defense for Aquisition, Ttchnology, and Logistics.
        We appreciate the wurtesies extended to the staff. Questions should be directed
to Mr. Bruce A. Burton at (703) 604-9071 (DSN664-9071) or Ms. Dianna J. Pearson at
(703) 604-9063 (DSN664-9063). See Appendix E for the report distribution. The team
m e m h are listed inside the back wver.
                                   By direction of the Deputy Inspect01 General for Auditing:



                                         Assistant inspector General
                                   Aquisition andTeclmology Management
                Department of Defense Office of the Inspector General
Report No. D-2005-070                                                                       May 10,2005
   (Project No. D2004-DOOOAB-0087.000)

                  Defense Information Systems Agency Data Call
                   Submissions and Internal Control Processes
                     for Base Realignment and Closure 2005

                                       Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure data calls and Defense Information Systems
Agency management personnel should read this report. The report discusses the
adequacy, completeness, and integrity of the data provided by the Defense Information
Systems Agency to assist the Secretary of Defense in Base Realignment and Closure
2005 recommendations.
Background. Base Realignment and Closure 2005 is the formal process outlined in
Public Law 101-5 10, "Defense Base Closure and Realignment Act of 1990," as amended,
under which the Secretary of Defense may realign or close military installations inside
the United States and its territories. As part of Base Realignment and Closure 2005, the
Under Secretary of Defense for Acquisition, Technology, and Logistics issued,
"Transfonnation Through Base Realignment and Closure (BRAC 2005) Policy
Memorandum One-Policy. Responsibilities, and Procedures," April 16,2003, that
provided for DoD Ofice of lnspector General review of the accuracy of Base
Realignment and Closure data and the certification process.
The Base Realignment and Closure 2005 process was mandated for the United States and
its territories and was divided into the following data calls - capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls are collectively known as the second data call. We issued
37' site memorandums for the capacity analysis data call and 18 site memorandums for
the second data call. Each memorandum summarized site visit results. This report
summarizes issues related to the data calls as of May 2,2005, for the Defense
Information Systems Agency Base Realignment and Closure 2005 process.




' We visited 36 sitcs for the capacity analysis data call but had to revisit two sites because DISA omitted
  buildings located at the sites. Therefore, we prepared a total of 37 site memorandums for the 36 sites
  visited for the eapacity analysis data eall.
                                           ~~   ~                                             ~




                                                                                                  ----   ~
Defense Information Systems Agency. The Defense lnformation Systems Agency is a
combat support agency responsible for planning, engineering, acquiring, fielding, and
supporting global net-centric solutions to serve the needs of the President. Vice
President, the Secretary of Defense, and other DoD Components, under all conditions of
peace and war. The designated core missions of Defense lnformation Systems Agency
are communication, joint command and control, defensive information operations,
combat support computing, and joint interoperability support.
Results. We evaluated the validity, integrity, and supporting documentation of Base
Realignment and Closure 2005 data and compliance with the Office of the Secretary of
Defense and Defense Information Systems Agency internal control plans for 36 sites for
the capacity analysis data call and 18 sites for the second data call (see Appendixes B
and C for a list of the judgmentally selected sites visited for the hvo data calls). We also
reviewed supporting documentation at Defense lnformation Systems Agency
Headquarters for the scenario specific data calls for the Headquarters and Support
Activities and Technical Joint Cross-Service Groups.
The Defense Information Systems Agency Base Realignment and Closure 2005 data call
responses for the sites visited were generally supported, complete. and reasonable after
corrections were made, but changes could have been made to the Joint Process Action
Team Criterion Number 7 data after the site visits. In addition, the data collection
processes generally complied with applicable internal control plans, and the Defense
Information Systems Agency internal control plan properly incorporated and
supplemented the requirements of the Office of the Secretary of Defense internal control
plan. Further, data integrity existed behveen the Defense Information Systems Agency
responses from their data collection tool and the Office of the Secretary of Defense
database. However, the Defense Information Systems Agency did not support
67 questions for the capacity analysis data call and did not answer or support
42 questions for the second data call. For the 12 scenario specific data calls, the Defense
Information Systems Agency partially supported 4 scenarios and did not support
8 scenarios. Subsequent to our site visit, the scenarios that we reviewed were either
revised or deleted. In addition, the Defense lnformation Systems Agency allowed sites to
certify data without reviewing supporting documentation; and Base Realignment and
Closure 2005 data was not always marked, stored in a central location, or readily
available for review. The issues identified should not affect the reliability or integrity of
the overall Defense Information Systems Agency Base Realignment and Closure 2005
process.
Management Comments. We provided a draft ofthis report on April 22,2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary

Background

Objectives

Finding
     Defense Information Systems Agencj Base Realignment and Closure
        2005 Data Call Submissions and Internal Control Processes              1

Appendixes
     A. Scope and Methodology                                              11
     9. Capacity Analysis Data Call Sites Visited and Questions Reviewed   16
     C. Second Data Call Sites Visited and Questions Reviewed              23
                                                                           -   ~




     D. Prior Coveraee
     -    -   -   ~   -                                                    26
     E. Report DistriIbution                                               33
Background
    Base Realignment and Closure (BRAC) 2005. Public Law 101-510, "Defense
    Base Closure and Realignment Act of 1990," as amended, establishes the
    procedures under which the Secretary of Defense may realign or close military
    installations inside the United States and its territories. The law authorizes the
    establishment of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Inffastructure Executive Council and the
    Infrastructure Steering Group as the BRAC 2005 deliberative bodies responsible
    for leadership, direction, and guidance. The Secretary of Defense must submit
    recommendations to the independent Commission by May 16,2005.
    Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross-Service Groups (JCSGs) - Education and Training, Headquarters and
    Support Activities (H&SA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs addressed issues that affect common business-
    oriented support functions, examine functions in the context of facilities, and
    develop closure and realignment recommendations based on the force structure
    plans of the Armed Forces and on selection criteria. To analyze the issues, each
    JCSG developed data call questions to obtain information about the functions that
     it reviewed.
    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls:
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
    (JPAT 7), and scenario specific. The supplemental capacity, military value,
    COBRA, and JPAT 7 data calls are collectively known as the second data call.
    The Services, Defense agencies, and Defense-wide Organizations used either
    automated data collection tools or a manual process to collect data call responses.
    Each data call had a specific purpose as follows.
               The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.
               The supplemental capacity data call clarified inconsistent data
               gathered with the initial capacity analysis data call.
               The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.
               The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.
                      The JPAT 7 data call gathered data to assess the community's ability
                      to support additional forces, missions, and personnel associated with
                      individual scenarios.'
                      The scenario specific data calls gathered data related to specific
                      scenario conditions for realignment or closure.
        Internal Control Plans. The internal control plans (ICPs) outlined management
        controls designed to provide accountability for information used in the BRAC
        2005 process. Before the BRAC data calls were released, OSD required the
        Services, and Defense agencies to prepare ICPs that incorporated and
        supplemented the OSD ICP. The OSD ICP was issued in the Under Secretary of
        Defense for Acquisition, Technology, and Logistics' memorandum
        "Transformation Through Base Realignment and Closure (BRAC 2005) Policy
        Memorandum One-Policy, Responsibilities, and Procedures," April 16,2003.
        The Defense Information Systems Agency (DISA) prepared, "Internal Control
        Plan for Base Realignment and Closure (BRAC) for 2005," on January 15,2004,
        and then updated the ICP on July 20,2004. The update was necessary to provide
        an exception for marking BRAC data. The DISA ICP requires that all BRAC
        data be marked with headers and footers. DISA used the Army's modified online
        automated data colIection tool for the BRAC 2005 process, which printed the
        markings at the beginning of each question, and not in the headers and footers as
        required. Therefore, DlSA allowed the exception so that data printed from the
        automated tool would be compliant.
        DoD Oflice of Inspector General Responsibility. Pursuant to "Transformation
        Through Base Realignment and Closure (BRAC 2005) Policy Memorandum
        One-Policy, Responsibilities, and Procedures," April 16, 2003, DoD Office of
        Inspector General (DoD OIG) provided advice and recommendations on ICP
        development and implementation, reviewed the accuracy of BRAC data, and
        evaluated the data certification process. In addition, DoD OIG personnel assisted
        the JCSGs and DoD Components as needed. This report summarizes the results
        of the DoD OIG efforts related to the DISA BRAC 2005 process.
        DISA. DISA is a combat support agency responsible for planning, engineering,
        acquiring, fielding, and supporting global net-centric soIutions to serve the needs
        of the President, Vice President, the Secretary of Defense, and other DoD
        Components, under all conditions of peace and war. The designated core
        missions of DISA are communication, joint command and control, defensive
        information operationsqcombat support computing, and joint interoperability
        support. We visited 36 sltes for the capacity analysis data caII, 18 sites for the
        second data call, and 1 site for the scenario specific data calls. See Appendix B

' A description of one or more potential closure or realignment actions identified for formal analysis by
 either a JCSG or a Military Depamnent.
'We visited 36 sites for the capacity analysisdatacall hut had to revisit hvo sites because DlSA omiued
 buildings loeated at the sites. Therefore, we preparcd a total of 37 site memorandums for the 36 sites
 visited for the capacity analysis data call.
    for a list of sites visited and the question numbers reviewed for the capacity
    analysis data call and Appendix C for a list of sites visited and the questions
    reviewed for the second data call.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DISA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DISA complied with the
    OSD and DISA ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the audit scope and methodology and the review on the management control
    program related to the audit objectives. See Appendix D for prior coverage.
           DISA BRAC 2005 Data Call Submissions
           and Internal Control Processes
           The responses that the DISA sites visited provided were generally
           supported, complete, and reasonable, after corrections were made. Also,
           the sites generally complied with the ICP requirements and the DISA ICP
           properly incorporated and supplemented the requirements of the OSD
           ICP. Further, data integrity existed between the DISA responses from
           their data collection tool and the OSD database. However, DISA did not
           complete all recommended actions for the data calls and did not fully
           comply with the ICP requirements as shown below.
                  DISA did not support responses to 67 questions at 8 of the 36 sites
                  visited for the capacity analysis data call;
                  DISA did not answer or support responses to 42 questions at
                  9 of the I8 sites visited for the second data call;
                  DISA partially supported 4 scenario specific data calls and did not
                  support 8 scenario specific data calls; however, subsequent to our
                  visit, the scenarios that we reviewed were either revised or deleted;
                  DISA allowed 4 sites for the capacity analysis data call and 4 sites
                  for the second data call to certify data without determining the
                  validity and integrity of supporting documentation; and
                  DISA BRAC data was not always marked, stored in a central
                  location, or readily available for review.
           The issues identified should not affect the reliability or integrity of the
           overall DISA BRAC 2005 process.


DISA BRAC 2005 Data Call Submissions
    The BRAC 2005 data reported by DISA sites visited were generally supported,
    complete, and reasonable, after corrections were made. For each site, DISA
    Headquarters forwarded specific targeted questions to the sites, and we evaluated
    the validity, integrity, and supporting documentation of the responses.
    Specifically, we compared responses to supporting documentation and reviewed
    "not applicable" question responses to determine whether they were reasonable
    and not default responses.
    Capacity Analysis Data Call. DISA sites visited for the capacity analysis data
    call provided reasonable responses and adequate support, after corrections were
    made. For the capacity analysis data call, DISA Headquarters received
    --                                  4                                  --
                                                                            -
                                                                                         ---
          753 questions from the OSD BRAC ofice. DISA Headquarters BRAC personnel
          reviewed the questions and targeted 165 ofthe 753 questions to 78 DISA
          locations in the United States. We evaluated the responses and support for
          36 sites (see Appendix B for a list of sites visited and questions reviewed). In
          addition, we also reviewed the reasonableness and support for "not appIicable"
          responses to ensure the response submitted was not an erroneous default. We
          determined that the "not applicable" responses were reasonable. However, at the
          sites visited, we identified responses with inadequate supporting documentation
          and inaccurate responses and, as a result, DISA personnel revised responses and
          provided documentation to support the changes. DISA agreed with the
          recommended action required but had not completed that action for 67 questions
          at 8 ofthe 36 sites visited. As of May 2, 2005, the following sites had questions
          that we still considered unsupported:
                   1. DISA Headquarters, Columbia Pike, Arlington, Virginia, had
                      5 unsupported questions (numbers 3 14,3 16,324,327, and 462);
                   2. Defense Spectrum Ofice, Hoffman Building One, Alexandria,
                      Virginia, had 3 unsupported questions (numbers 314,316, and 462);
                   3. Defense Technical Information Center padquarters, Fort Belvoir,
                      Virginia, had 10 unsupported questions (numbers 314,3 15,3 19,320,
                      325, 330,456,457,463, and 465). In addition, Defense Technical
                      Information Center Headquarters certified data for its Northeastern,
                      Southwestern, Midwestern, and Western sites. As of May 2,2005,
                      question number 301 was unsupported for all four sites and question
                      number 304 was unsupported for the Northwestern site;
                   4. DISA Continuity of Operations Test Facility, Slidell, Louisiana,
                      certified data for the four liaison offices located at Army
                      Communications and Electronics Command, Air Force Electronics
                      Systems Command, Navy Space and Naval Warfare Systems
                      Command, and Army 111 Corps. As of May 2,2005, the four liaison
                      ofices had 28 unsupported questions (numbers 199,200,301,302,
                      304, 305, and 582 at the four sites);
                   5. DISA Headquarters Building 12, Arlington, Virginia, had
                      3 unsupported questions (numbers 3 14,3 16, and 325);
                   6. DISA Headquarters, Skyline Building 5, Falls Church, Virginia, had
                      2 unsupported questions (numbers 3 14 and 462);
                   7. DISA Headquarters, Skyline Building 7, Falls Church, Virginia, had
                      5 unsupported questions (numbers 3 14,316,324,327, and 462); and
                   8. White House Communications Agency, Washington, D.C., had
                      6 unsupported questions (numbers 11,314,317,319,325, and 582).
-

    Responses for question numbers 330,456, and 457 should be changed to "not applicable."
                                                                                    -
                         --                          5
We concurred with DISA rationale for the responses and the proposed action to
revise documentation to support the responses but did not verify the revisions.
We did not consider the issues to affect the reliability or integrity of data
submitted for the BRAC 2005 analysis.
Second Data Call. The DISA sites visited for the second data call generally
provided reasonable responses and adequate supporting documentation after
corrections were made. The JCSGs targeted questions for the second data call
and DISA Headquarters BRAC personnel reviewed the questions and forwarded
the questions to DISA sites within the United States. We evaluated the responses
and supporting documentation at 18 locations that we visited during the second
data call. We also evaluated the "not applicable" responses for reasonableness
and support to ensure that responses submitted were not an erroneous default. We
determined that the "not applicable" responses were reasonable. However, we
identified responses with inadequate support and inaccurate responses and, as a
result, DISA sites revised their responses and provided documentation to support
the changes. We also determined that DISA Headquarters did not provide
COBRA question numbers 1500, 1505, and 1507 to the DISA sites visited.
Further, as of May 2,2005, DISA had not provided documentation to support its
rationale for not responding. Based on our review, we determined that DISA had
not completed action for 42 questions at 9 of the 18 sites visited for the second
data call. Also, as of May 2, 2005, the following sites had questions that we still
considered unanswered or unsupported:
       1. DISA Headquarters, Columbia Pike, Arlington, Virginia, had
          3 unanswered COBRA questions (numbers 1500,1505, and 1507);
          and 1 unsupported H&SA JCSG supplemental capacity question
          (number 4096);
       2. Computer Services Division Headquarters (certified data for Financial
          Management Liaison Office, which is also shown below), Denver,
          Colorado, had 3 unanswered COBRA questions (numbers 1500, 1505,
          and 1507);
       3. Defense Enterprise Computing Center (certified for Defense
          Enterprise Computing Center, St. Louis, U.S. Transportation
          Command Support Office Scott Air Force Base, Illinois, which had no
          outstanding issues), Saint Louis, Missouri, had 3 unanswered COBRA
          questions (numbers 1500, 1505, and 1507);
       4. Defense Spectrum Off~ce,Hoffman Building One, Alexandria,
          Virginia, had 3 unanswered COBRA questions (numbers 1500, 1505,
          and 1507);
       5. DISA Continuity of Operations Test Facility (certified data for
          4 liaisons offices: Army Communications and Electronics Command,
          Air Force Electronics Systems Command, Navy Space And Naval
          Warfare Systems Command, and Army 111 Corps), Slidell, Louisiana,
                    had 3 unanswered COBRA questions (numbers 1500, 1505, and 1507)
                    and 12 unsupported H&SA JCSG supplemental capacity questions at
                    the 4 liaison offices (numbers 4072,4073, and 4074 were unsupported
                    at the 4 sites);
                6. Financial Management Liaison Office, Pensacola, Florida, had
                   3 unanswered COBRA questions (numbers 1500, 1505, and 1507);
                7. DISA Headquarters, Skyline Building 5, Falls Church, Virginia, had
                   3 unanswered COBRA questions (numbers 1500, 1505, and 1507) and
                   1 unsupported H&SA JCSG supplemental capacity question
                   (number 4096);
                8. DlSA Headquarters, Skyline Building 7, Falls Church, Virginia, had
                   3 unanswered COBRA questions (numbers 1500, 1505, and 1507);
                   and I unsupported H&SA JCSG supplemental capacity question
                   (number 4096); and
                9. Joint Spectrum Center, Annapolis, Maryland, had 3 unanswered
                   COBRA questions (numbers 1500, 1505, and 1507).
       The JPAT 7 made the decision to replace JPAT 7 question numbers 1418 and
       1419 with question numbers 1420 and 142 1. However, DISA did not provide the
       activities with the questions until after our site visits. Therefore, we did not verifi
       documentation supporting the responses for question numbers 1420 and 1421.
       Further, we did not determine whether the support ?as reasonaple or accurate for
       H&SA JCSG military value question numbers 1907 and 1908 because we were
       unable to validate the steps taken to generate the responses. As of May 2,2005,
       DISA had not provided applicable documentation for the unanswered and
       unsupported questions.
       Scenario Specific Data Calls. DISA provided reasonable responses but did not
       always provide documentation that fully supported the scenario specific data
       calls. However, as a result of our site visit, DISA Headquarters agreed to provide
       additional supporting documentation. For example, we requested documentation
       to show why DISA personnel data reported to the JCSGs differed from the
       personnel data shown on the official personnel records. DISA Headquarters
       received 12 scenario specific data calls from the JCSGs, 10 from the H&SA
       JCSG and 2 from the Technical JCSG, as of M a c h 4,2005. As of May 2,2005,
       DISA had not provided the supporting documentation to adequately support the
       data calls. The status of the scenario specific data calls was shown below.
                     Four H&SA JCSG scenario specific data calls were partially supported
                     (HSA-0045, HSA-0046, HSA-0089, and HSA-0090);

The question asks for the number of meetings benveen an orgmimtion's senior officials, including flag
and general offieers, and senior officials irom another organi/ation located in the Washington. D.C.. area.
The question asks for the number of meetings between an organization's senior officials, including flag
and general officers, and Members of Congress or their staffs.
                Six H&SA JCSG scenario specific data calls were unsupported
                (HSA-0029, HSA-0030, HSA-003 I, HSA-0088, HSA-0096, and
                HSA-0097); and
                Two Technical JCSG scenario specific data calls were unsupported
                (TECH-0030 and TECH-0047).
     Subsequent to our visit, the scenarios that we reviewed were either revised or
     deleted. Therefore, the documentation we requested is no longer applicable and
     no further action is required by DISA.


Internal Control Processes
     The DISA sites generally complied with the applicable ICPs for data colIection
     processes for the capacity analysis data call, the second data call, and the scenario
     specific data call. Further, the DISA ICP properly incorporated and
     supplemented the OSD ICP requirements for certifying, marking, storing, and
     providing access to data used for the BRAC 2005 process.
     We evaluated the compliance with the DISA ICP at 36 sites for the capacity
     analysis data call, 18 sites for the second data call, and DISA Headquarters for the
     scenario specific data calls. We reviewed whether the sites visited completed
     nondisclosure agreements, marked BRAC data, and safeguarded data. However,
     we determined that DISA sites visited did not fully comply with the DISA and
     OSD ICPs as follows.
     Certification of BRAC Data. Public Law 101-510, "Defense Base Closure and
     Realignment Act of 1990," as amended, section 2903(c)(5) requires that all
     information used to develop and submit realignment and closure
     recommendations to the Secretary of Defense or the 2005 Defense BRAC
     Commission, or both, be certified as accurate and complete to the best of the
     certifier's knowledge and belief. The DISA ICP properly incorporated the OSD
     ICP requirements to certify BRAC 2005 data for accuracy and completeness.
     BRAC Data Collection and Certification. The DlSA ICP provided guidance on
     the collection and certification of BRAC data within the agency's organizational
     structure. Based on the guidance, four DISA sites certified BRAC 2005 data from
     data entry sites for the capacity analysis data call and the second data call without
     reviewing supporting documentation. We reviewed the supporting documentation
     at two data entry sites for each data call. See Appendix A for a discussion on the
     sites that certified data without reviewing supporting documentation and for the
     status of our review on the sites. According to the DISA ICP, supporting
     documentation for each data call question only needs to be available at the site
     where the data were entered for review. However, because the certification site
     was different from the data entry site, the certifying site did not have access to the
     supporting documentation to validate the BRAC responses.
      -                             ---    8
                                           -    ---                -   --   /---
       Compliance With OSD and DISA ICPs. Documentation supporting BRAC
       data was not always marked, stored in a central location, or readily available for
       review, as required by the ICP. According to the DISA ICP, documentation
       supporting the BRAC 2005 process must be properly marked with the required
       BRAC headers and footers. Because the tool that DISA used for collecting and
       reporting BRAC data printed the header and footer before each BRAC question,
       DISA revised its ICP to allow the exception for items printed from its tool.
       However, for each data call, we found that not all B d C documentation was
       properly marked. Based on our discussions during the review, DISA sites agreed
       to mark all BRAC documentation in accordance with the ICP. In addition. DISA
       sites did not always store BRAC data in a central location, as required by h e
       DISA ICP. However, DISA determined that the documentation would remain
       with the initiator of the data and not in a central location. Finally, data stored
       with the initiators of the data were not readily available for review. However, we
       determined that documentation that we reviewed was properly safeguarded at
       each site visited.


Data Integrity
       Data integrity6 existed between the DISA responses from their data collection tool
       and the OSD database. The DoD 01G Data Mining Division reviewed the
       integrity of the data transferred from the DISA data collection tool to the OSD
       database. From the 35,785 responses provided by DISA, the Data Mining
       Division identified the following discrepancies:
                26 responses were in the DISA data collection tool but were not in the
                OSD database;
                72 responses were in the OSD database but were not in the DISA data
                collection tool; and
                Text in 2 responses did not match.
       b'e evaluated the discrepancies hctwcen the databases and determined that there
       should be no significant impact on the integrity of data or on thc JCSGs' analyses.




Data integrity is the condition existing when data is unchanged from its source and has not been
accidentally or maliciously modified, altered, or destroyed.
    See Appendix A for a discussion of the details on the discrepancies. The DoD
    OIG Data Mining Division will be issuing a separate memorandum on their
    review of the DISA and OSD databases.


Conclusion
    DISA BRAC 2005 data call responses for the sites that we visited were generally
    supported, complete, and reasonable, after corrections were made. However,
    DISA did not fully support 67 questions at 8 of 36 sites for the capacity analysis
    data call, had 42 unanswered or unsupported questions at 9 of 18 sites for the
    second data call, and did not hlly support 12 scenario specific data calls at the
    1 site visited. Subsequent to our visit, the scenarios that we reviewed were either
    revised or deleted. Therefore, the documentation we requested is no longer
    applicable and no hrther action is required by DISA. For the DISA sites visited,
    DISA generally complied with the ICPs. However, DISA allowed sites to certify
    data without reviewing supporting documentation and BRAC 2005 data were not
    always marked, stored in a central location, or readily available for review. The
    issues identified should not affect the reliability or integrity of the overall DISA
    BRAC 2005 process. We discussed the issues identified with DISA management.
    DISA concurred with the findings and stated that it will take action, as
    appropriate, to resolve the outstanding issues.
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DISA
   BRAC 2005 data. The evaluation compared responses to supporting
   documentation and reviewed "not applicable" responses to determine whether
   they were reasonable and not default responses. Questions had either an answer
   or a "not applicable" response; a "not applicable" response was for questions that
   did not apply to a site. We evaluated whether the DISA ICP incorporated and
   supplemented the requirements of the OSD ICP; whether site data collection
   procedures were in compliance with DISA ICP procedures for collecting, storing,
   accessing, and controlling BRAC information; and whether BRAC information
   was certified for accuracy and completeness. In addition, we interviewed the
   personneI responsible for preparing and certifying the responses to the data calls.
   Capacity Analysis Data Call. DlSA Headquarters received 753 capacity
   analysis data call questions from the OSD BRAC office. DISA Headquarters
   reviewed the data call questions and targeted the data call questions to various
   DISA sites. We did not validate the selection process or the questions that were
   not forwarded to the sites. We identified 78 DISA sites that responded to the data
   call. However, we selected only those sites to review that had more than 25
   people. Because of time and money constraints, we did not visit the DISA sites
   located in Hawaii. We also did not visit some sites whose data were certified by
   the sites that we visited. The sites that certified other sites for the capacity
   analysis data call follow.
           Defense Technical Information Center Headquarters, Fort Belvoir,
           Virginia, certified BRAC data for regional sites that included
           Northeastern, southwestern, Midwestern, and Western sites. We did not
           verify or validate supporting documentation at the regionaI sites.
           Defense Enterprise Computing Center, Saint Louis, Missouri, certified
           BRAC data for an additional site, the Defense Enterprise Computing
           Center, Saint Louis, U.S. Transportation Command Support Office. We
           verified and validated supporting documentation at the additional site.
           DlSA Continuity of Operations Test Facility, Slidell, Louisiana, certified
           BRAC data for DISA liaison off~ceslocated at Army 111 Corps, Army
           Communications and Electronics Command, Naval Warfare Systems
           Command, and Air Force Electronics Systems Command. We did not
           verify or validate BRAC data at the liaison sites.
           Joint Interoperability Test Command, Fort Huachuca, Arizona, certified
           for the Indian Head, Maryland, site. We verified and validated supporting
           documentation at both sites.
    At each site visited, we reviewed the data call responses and the documentation
    supporting the responses. We issued 37 site memorandums to summarize the
         results of the visits at 36' sites. The DISA sites visited and the capacity analysis
         data call questions that DISA Headquarters targeted to the DISA sites are shown
         in Appendix B.
        Second Data Call. DISA Headquarters received targeted questions from the
        JCSGs. Specifically, DISA responded to 3 1 H&SA JCSG military value
        questions (numbers 1900, 1904 through 1919, 1921, 1925, 1926, 1947, 1949
        through 1951, 1953, 1956,1958, and 1961 through 1964); 18 JPAT 7 questionss
        (numbers 1400 through 1417), 13 H&SA JCSG supplemental capacity questions
        (numbers 4001,4072 through 4074,4079 through 4081,4096, and 4099 through
        4103); 8 COBRA questions (numbers 1500 through 1507); and 10 Technical
        JCSG military value questions (numbers 3001, 3002, 3004, 3012, 3013, 3019,
        3021, and 3025 through 3027). DISA reviewed the questions and seIected
        specific questions to further target to DlSA sites. We did not validate the
        selection process or the questions that were not forwarded to the sites. However,
        except for COBRA question numbers 1500, 1505, and 1507, DISA generally
        complied with the OSD requirement for stand-alone facilities, which included the
        leased facilities, to answer the JPAT 7 and COBRA data call questions.
        Because of time and funding constraints, we selected Ieased sites and sites that
        were located close to the leased sites to visit for the second data call. Therefore,
        we selected 18 sites to visit for the second data call. After our site visits. the
        JPAT 7 replaced question numbers 1418 and 1419 with question numbers 1420
        and 1421. We did not revisit sites to validate responses or supporting
        documentation for the questions. Also, we did not determine whether the support
        was 5easonable $r accurate for H&SA JCSG military value question numbers
        1907 and 1908 because we were unable to validate the steps taken to generate
        the responses. Further, we did not visit some sites whose data were certified by
        the sites that we visited. The sites that certified other sites for the second data call
        are shown below.
                  Defense Enterprise Computing Center, Saint Louis, Missouri, also
                  certified second data call BRAC data for the Defense Enterprise
                  Computing Center, Saint Louis, U.S. Transportation Command Support
                  Oftice. We verified and validated supporting documentation at the
                  Defense Enterprise Computing Center, Saint Louis, U.S. Transportation
                  Command Support Office for the second data call.

' We identified 36 sites for the capacity analysis data call but had to revisit two sites because DISA omitted
 buildings located at the sites. Therefore, we prepared a total number of 37 site memorandums for the
 36 sites visited for the capacity analysis data call.
 JPAT 7 made the decision to replace JPAT 7 question numbers 1418 and 1419 with JPAT 7 question
 numbers 1420 and 1421.
 The question asks for the number of meetings between an organization's senior officials, including flag
 and general officers, and senior officials from another organization located in the Washington, D.C., area.
"The question asks for thc number of mcetings betwcen an organization's senior officials, including flag
 and general officers, and Members of Congrcss or their staffs.
        DISA Continuity of Operations Test Facility, Slidell, Louisiana, also
        certified second data call BRAC data for DlSA liaison offices located at
        Army Ill Corps, Army Communications and Electronics Command,
        Naval
        Warfare Systems Command, and Air Force Electronics Systems
        Command. We did not verify or validate BRAC data at the liaison sites
        for the second data call.
        Joint Interoperability Test Command, Fort Huachuca, Arizona, also
        certified for the Indian Head, Maryland, site. We verified and validated
        supporting documentation at both locations for the second data call.
        Computer Services Division Headquarters, Denver, Colorado, certified
        data for DISA Financial Management Liaison Office, Pensacola, Florida.
        We did not verify or validate BRAC data at the Pensacola location for the
        second data call.
At each site visited. we evaluated the data call responses and the documentation
supporting the responses. We issued I8 site memorandums to summarize the
results of those site visits. The DISA sites that we visited and the second data
call questions are shown in Appendix C.
Scenario Specific Data Calls. As of the site visit on February 28, 2005, DISA
Headquarters received 12 scenario specific data calls from OSD and submitted
responses. We evaluated responses and followed up on outstanding issues from
the capacity analysis and second data calls. The following identifies the scenario
specific data calls reviewed and the additional followup from the previous data
calls at DISA Headquarters.
       H&SA JCSG Scenario Specific Data Calls (scenario numbers HSA-0029,
       HSA-0030, HSA-003 1, HSA-0045, HSA-0046, HSA-0088, HSA-0089,
       HSA-0090, HSA-0096, and HSA-0097);
       Technical JCSG Scenario Specific Data CalIs (scenario
       numbers TECH-0030 and TECH-0047;
       Status on recommended action related to the 37 site memorandums for the
       capacity analysis data call; and
       Status on recommended action related to the I8 site memorandums for the
       second data call.
Documentation provided for the scenario specific data calls did not fully support
the responses. However, subsequent to our visit, the scenarios that we reviewed
were either revised or deleted. Therefore, the documentation we requested is no
longer applicable and no further action is required by DISA.
Data Integrity. The DoD OIG Data Mining Division reviewed the integrity of
the data transferred from the DISA data collection tool to the OSD database. The
                                                                            --   ~~~-
                                     13                                --
    35,785 responses in the DISA database were compared to the 35,801 responses in
    the OSD database. We reviewed the discrepancies between the databases to
    determine if the discrepancies would have a material impact on the JCSGs'
    analyses.
           26 responses were in the DISA data collection tool but were not in the
           OSD database. Ofthe 26 questions, DlSA submitted a response of
           "not applicable" to 25 questions. The 25 questions were subsequently
           deleted from the OSD database. For the remaining question, the
           discrepancy occurred because OSD provided more columns for the
           response than required. We determined that the 26 discrepancies should
           have no material impact on the JCSGs' analyses.
           72 responses were in the OSD database but were not in the DlSA data
           collection tool. Of the 72 ouestions. 61 discre~anciesoccurred because
           DISA submitted a responskof "not applicable3' in one column and did not
           orovide resoonses for the remaining columns. The remaining
           i I discrcpailcies also occurred because of ..not applicable" r;sponses.
           The 72 discrepancies should have no material impact on the JCSGs'
           analyses.
           Text in 2 responses did not match. DISA had no record of the responses
           in the OSD database. However, the 2 questions were "not applicable" to
           DISA. Therefore, the 2 discrepancies should have no material impact on
           the JCSGs' analyses.
    We performed this audit from January 2004 through May 2005 in accordance
    with generally accepted government auditing standards.
    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support an answer to a data call question
    because of time constraints. Potential inaccuracies in the data could affect the
    results. DISA stated that the BRAC data were certified as accurate and complete
    to the best of the certifier's knowledge and belief. Further, we did not review the
    automated data collection tools used. The Army Audit Agency evaluated the
    online automated data collection tool and identified no material weaknesses.
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Federal ReaI Property and the DoD
    Support Infrastructure Management high-risk areas.


Management Control Program Review
    We did not review the DISA management control program because its provisions
    did not apply to the one-time data collection process. However, we evaluated the
   -      -                              14                            p-     --    -- -
DlSA management controls for preparing, submitting, documenting, and
safeguarding information associated with the BRAC 2005 data calls, as directed
by the applicable 1CPs. Specifically, we reviewed the procedures that DlSA used
to develop, submit, and document data call responses. In addition, we reviewed
the controls implemented to maintain BRAC documentation in accordance with
applicable ICPs. Management controls were adequate as they applied to the audit
objective. See the finding section for additional details.
Appendix B. Capacity Analysis Data Call Sites
            Visited and Questions Reviewed

              DISA Site
Business Management Center,
Computer Services - Logistics, and     319,321,322,324,       199,200,238,246,
Operations, Chambersburg,              326,465, and 582       247, 303-305,3 15-
Pennsylvania                                                  3 17, 320, 323,325,
                                                              327,330,340,455,
                                                              456,457,463,467,
                                                              473-476, and 62 1
Computing Services Division            11,24,27,210,214,      23,25,28-31,40,
Headquarters, Denver, Colorado         219, 310,311,313,      198-200, 21 1-213,
                                       314,319,321,324,       215-218,220-225,
                                       327,330,445,456,       230-238, 246,247,
                                       457, and 582           291-293, 297, 298,
                                                              315-318. 320. 322.




                                       and 582
Defense Enterprise Computing Center,   ll,23-25,27-29,303-
Mechanicsburg, Pennsylvania            305,314-322,325-
                                       327, 330,456,457,      340,455,473-476,
                                       463,465,467,582,      , and 621
                                     ' and 590
Defense Enterprise Computing Center, 11, 23-25, 27-29,40,     238, 320, 325,473-
Ogden, Utah                            199,200,246,247,       476, and 621
                                       301-305, 314-3 19,
                                       321-324,326,327,
                                       330. 340.455-457.
                                       and582
Defense Enterprise Computing Center, 11,23-25,27-29,40,
Oklahoma City, Oklahoma                301, 302,304,305,      247, 303,317,330,
                                       314-3 16,3 18-327,     340,455-457,473-
                                       and 582                476 2nd 67 l
                                                          Question Number
              DISA Site                          Answered                Not Applicable
Defense Enterprise Computing Center,        23-25,27-29,210,       1 1 , 30, 31,40, 198-
Saint Louis, Missouri                       246,310,311,314-       200,211-225,230-
                                            317,322,325-327,       238, 247,291-293,
                                            330,340,455-457,       297,298,313,318-
                                            473,474, and 582       321, 323,324,445,
                                                                   475,476, and 621
Defense Enterprise Computing Center,
Saint Louis. Missouri. certified data
for:
                                        1   23,24,27, 318,321,
  Defense Enterprise Computing              and 322
  Center, Saint Louis, U.S.
  Transportation Command
  Support O f i c e

Defense Enterprise Computing Center         23-25,27-29, 301-
Detachment, Dayton, Ohio                    303,314-327,456,
                                            and 582




Defense Enterprise Computing Center
Detachment, Huntsville, Alabama                                     315, 317,318,320,
                                                                    323, 325,340,457,
                                                                    473-475, and 476

Defense Enterprise Computing Center
Detachment, Jacksonville, Florida
                                                                    315; 320; 323; 325;
                                                                    340,473-476, and 621


Montgomery, Alabama                         322,325,326,455-
                                            457, and 582
                                                            Question Number
                                                     Answered

                                              303, 3 14-327, 330,
                                              456, and 582
                                                                      473-476,590, and 621
                                                                      25,28,29, 199,200,
                                                                      317, 324, 325, 330,
                                              305, 314-316, 318-      340, 457,473-476,
                                             1 323.326.327.455.       and 62 1
                                              1 456; and'582 '
    Defense Enterurise Comvutine Center I 11.23-25.27-29.40.          199, 200, 247, 303,
1   Detachment.   an ~ n t o n i b ~, e G a s 1 238, 246.'301. 302.   323-325,327,330,
                                                                      340,473-476, and 621
                                                                   24, 40, 199, 200,238,
    Detachment, San Diego, California         301-303, 321,324,    246, 247, 304, 305,
                                              326,327,330,456,     314-320,322,323,
                                              457,582, and 590     325,340,455,473-
                                                                   476, and 621
    Defense Enterprise Computing Center       1I, 23-25,301, 302,  27-29.40. 199. 200.
    Detachment, Warner Robins, Georgia        3 14, 3 16,318,320-  238, 246,'247,'303-'
                                              322, 327, 456, 457,  305, 315, 317,319,
                                              and 582              323-326,330, 340,
                                                                   455,473-476, and 621
    Defense Information Technology            11, 199,200,301-303, 40, 238, 246, 247,
    Contracting Organization, Scott Air       305, 340,474,476,    304, 323-327, 330,
    Force Base, Illinois                      and 582              455-457,473,475,
                                                                   and 621
    Defense Spectrum Office, H o f h a n      23,24,27,85,314,     11. 25.28-31.40. 84.
    Building One, Alexandria, Virginia        316, 319, 322, 324,
                                              327,462,466, and



                                                                      455:457,'464,'473:
                                                                      476, and 621
                                                       Question Number
              DISA Site                        Answered            Not Applicable
Defense Technical Information Center     23,24,27,40, 304,      11,25,28,29, 199,
Headquarters, Fort Belvoir, Virginia     305, 314-316,318-      200, 238, 246,247,
                                         322, 325, 330,456,     303,317,323,324,
                                         457, 463,465, 467,     326,327,340,455,
                                         and 621                473-476, and 582
Defense Technical Information Center
Headquarters, Fort Belvoir, Virginia,
certified data for:
   Defense Technical Information       301 and 304                   11, 199,200,302-305,
   Center, Northeastern, Southwestern,                               330,455, and 582
   Midwestern, and Western
DISA Continental United States, Scott 11,23-25,27,40,
Air Force Base, Illinois               301-303, 314,316-
                                       322,324, 326,327,
                                       455. and 582
DISA Continuity of Operations Test
Facility, Slidell, Louisiana



                                                                 1 476, and 582
DlSA Continuity of Operations Test
Facility, Slidell, Louisianq certified
data for the liaisons offices below:
  Army Communications and                11, 199,200, 301-305,
  Electronics Command, Air Force         330,455,582, and
  Electronics Systems Command,           590
  Navy Space And Naval Warfare
  Systems Command, and
  Army I11 Corps
DISA, Fort Detrick, Maryland

                                                                 1   327,330,340,455,
                                                                     457, 467, 473-476,
                                                                     582, and 62 1
                                                                                            1
                                                       Question Number
                                              Answered              Not Applicable

1 Chambersburg, Pennsylvania            11, 304, 456, 463,
                                        465, and 467
                                                                40, 199,2-
                                                                303,305,321-327,
                                                                330.340.455.457.
    DISA Headquarters, Building 1,      l l , 23,24,85,317,
    Arlington, Virginia                 319,456,463, and
                                        582
                                                               3 18, 320-324,325-
                                                               327, 330,340,455,
                                                               457,465,467,473-
                                                               476,590, and 62 1
    DISA Headquarters, Building 2,                             40, 84, 199, 200, 238,




                                        1~~-
    Arlington, Virginia                                        246.247.303-305.
                                        324-327; 456: 457;
                                        463.465. and 582
                                                               590, and 621
                                                               28,29,40, 84, 199,
    Arlington, Virginia                 316,317, 319-322,      200,238, 246,247,
                                        324-327, 340,456,      303-305. 315, 318,
                                        457,463,465,474,       323, 330,455,467,
                                        and 582                473.475.476.590.




I
                                                              l[d'621','l~
    DISA Headquarters, Columbia Pike,   23,25,27,85,314,       11,24,28-31,40, 84,
    Arlington, Virginia                 316,317,319,322,       198-200,210-225,
                                        324, 327, 340,456,     230-238,246, 247,
                                        457,462,466,474,       291-293,297,298,
                                        and 582                310, 315,318,320,
                                                               321,323,325,326,
                                                               330,445,455,464,
                                                               473.475,476, and
                  DISA Site
    DISA Headquarters, Skyline
1 . Bullding 5, Falls Church, Virginia




                                              462; 466; 474; and      291-293; 297; 298;
                                              582                     310, 315, 318,320-
                                                                      323, 326,330,340,
                                                                      445,455,464,473,
                                                                      475,476, and 621
    DISA Interoperability Directorate, Fort   1 I, 303, and 456       40,84,85,199,200,
1 Monmouth, New Jersey                                                238, 246, 247, 304,
                                                                      305, 323-327,330,
                                                                      340,455,457,473-
                                                                      476, 582 and 621

    Joint Interoperability Test Command,      1 1, 86, 301,324,325,
    Fort Huachuca, Arizona (certified for     455,456,582,686-
    Joint Interoperability Test Command,      688,690,691,700,
    Indian Head, Maryland)                    736, and 748



I   Joint Interoperability Test Command,      11,40,246,688,690-
    Indian Head, Maryland                     692,700,736, and
                                              748

                                                                      463; 465; 467,473-
                                                                      476, 582, 590,621,
                                                                      686, 687, 689,693,
                                                                      699, 701, 732, and
                                                                      747
                                                   Question Number
                                          Answered             Not Applicable
Joint Spectrum Center, Annapolis,   11, 23,24,27,40,        25,28-31, 198-200,
Maryland                          1 210,214,215,219,        211-213,216-218,
                                    231,232,235,236,        220-225, 230,233,
                                    246, 291,297, 310,      234,237, 238, 247,
                                    314,316-322,324-        292,293,298,315,
                                    327, 445, 456, 457,     323, 330, 340,455,
                                    462,466, and 582
White House Communications Agency, ll,23-25,27-29,40, 247, 340,473-476,
Washington, DC                      199,200,238,246,        and 590
                                    303-305,314-327,
                                    330,455-457,463,
                                    465,467,582, and
                                    62 1
Appendix C. Second Data Call Sites Visited and
            Questions Reviewed

                DlSA Site                        Answered                         Not Applicable
Business Management Center,              1 1961                                1962,4072,4073,
Computer Support - Logistics, and                                              4074, and 4080
Operations, Chambersburg,
Pennsylvania
Computing Services Division                1400-1417, 1501,                    1502, 1503,1504,
Headquarters, Denver, colorado''           1912, and 4096                      1506, and 4080
(certified for Financial Management
Liaison Oftice, Pensacola, Florida)
Financial Manage!ent     Liaison Office,                                       1502, 1503, 1504,
Pensacola, Florida                         1912, and 4096                      1506, and 4080
Defense Enterprise Computing Center, 1961, 1962, 1963,                         4074
Mechanicsburg, Pennsylvania              ' 4072,4073, and 4080
Defense Enterprise Cplmputing Center, 1400-1417, 1501,                         1502, 1503, 1504,
Saint Louis, Missouri (certified for       1912, 1961, 1962,                   1506, and 4080
Defense Enterprise Computing Center, 1963, and 4096
St. Louis, U.S. Transportation


St. Louis, U.S. Transportation                                                 4074, and 4080
Command Support Office
Scott Air Force Base, Illinois
Defense Enterprise Computing Center                                            4072,4073,4074, and
Detachment, Denver, Colorado                                                   4080
Defense Information Technology                    1918, 1921,1953,
Contracting Organization, Scott Air               4072,4073,4074, and
Force Base, Illinois                              4080
Defense Spectrum Office, Hoffmanl,                1400-1417, 1501,             1502and4080
Building One, Alexandria, Virginia                1503, 1504,1506,
                                                  1912,4096,4099,
                                                  4100,4101,4102, and
                                                  4103
                                        Scott     1961, 1962,4072,
                                                  4073,4074, and 4080




"   DlSA Headquarlers had not sent question numbers 1500, 1505,and 1507 to the sites that we visited.
                                                    23                                  -- -
                                                                    Question Number
                    DISA Site                               Answered            Not Applicable
    DISA Continuity of Operaijons Test                1400-1417, 1501,       1506 and 4080
    Facility, Slidell, Louisiana                      1502, 1503, 1504,
                                                      1912, 1961, 1962,
                                                      1963, and 4096
I
    DISA Continuity of Operations Test
    Facility, Slidell, Louisiana, certified
    data for the Iiaisons offices below:
       Army Communications and
       Electronics Command, Air Force
       Electronics Systems Command,
                                                                                  1   4072,4073, and 4074
                                                                                                             1
       Navy Space And Naval Warfare
       Svstems Command. and
       &my 111corps '
    DISA Field Security Operations,                                                   4072,4073,4074,
    Chambersburg, Pennsylvania                                                        4080
    DISA H e a d q u a r t e r s l l C o l u m                                         ~
    Arlington, Virginia                    1503, 1504, 1506,
                                           1912,4096,4099,
                                         I 4100,4101,4102, and
                                           4103
    DISA Headquarters, Skyline             1400-1417, 1501,                           1502and4080
    Building 5, Falls Church, virginial'   1503, 1504,1506,
                                           1912,4096,4099,
                                           4100,4101,4102, and
                                           4103
    DISA Headquarters, Skyline             1400-1417, 1501,                           1502 and 4080
    Building 7. Falls Church, virginial'   1503, 1504, 1506,
                                           1912,4096,4099,
                                           4100,4101,4102, and




    "   DISA Headquarters had not sent question numbers 1500, 1505, and 1507 to the sites that we visited.


                          ~   ~~~p~        -            24
Joint lnteroperability ~ e i Command,
                             t
lndian Head, Maryland)

Joint ln~eroperability'rest Command,
Indian tlcad, Mapland        - -
Joint Specwum Center, Annapolis.
Maryland' '
                                             -
                                                                              4072,4073,4074,and
                                                                               4080
                                                                               1502, 1506, and 4080
                                                                                                         1




"   DISA Headquarters had not sent question numbers 1500, 1505, and 1507 to the sites that we visited.
Appendix D. Prior Coverage
   The following DoD OIG memorandums related to DISA BRAC 2005 and an
   Army Audit Agency audit report related to the automated data collection tool
   havebeen issued.

DoD OIG
   Site Memorandums
   DoD OIG Memorandum, "Audit on the Second Data Call Submission From
   Defense Enterprise Computing Center, Saint Louis, Missouri, to Defense
   Information Systems Agency for Base Realignment and Closure 2005,"
   December 17,2004
   DoD OIG Memorandum, "Audit on the Second Data Call Submission From
   Defense Enterprise Computing Center, St. Louis, U.S. Transportation Command
   Support Office, Scott Air Force Base, Illinois, to Defense Information Systems
   Agency for Base Realignment and Closure 2005," December 17,2004
   DoD OIG Memorandum, "Audit on the Second Data Call Submission From the
   Joint Spectrum Center, Annapolis, Maryland, to Defense Information Systems
   Agency for Base Realignment and Closure 2005," December 17,2004
   DoD 01G Memorandum, "Audit on the Second Data CalI Submission From
   Financial Management Liaison Office, Pensacola, Florida, to Defense Information
   Systems Agency for Base Realignment and Closure 2005," December 17,2004
   DoD OIG Memorandum, "Audit on the Second Data Call Submission From the
   Computing Services Division Headquarters, Denver, Colorado, to the Defense
   Information Systems Agency for Base Realignment and Closure 2005,"
   December 14,2004
   DoD OIG Memorandum, "Audit on the Second Data CalI Submission From
   Defense Information Systems Agency Continuity of Operations Test Facility,
   SlidelI, Louisiana, to Defense Information Systems Agency for Base Realignment
   and Closure 2005," December 14,2004

   DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
   From the Business Management Center, Computer Support - Logistics, and
   Operations, Chambersburg, Pennsylvania, to Defense Information Systems
   Agency for Base Realignment and Closure 2005," December 14,2004
        DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
        From the Field Security Operations, Chambersburg, Pennsylvania, to Defense
        Information Systems Agency for Base Realignment and Closure 2005,"
        December 13,2004
        DoD OIG Memorandum, "Audit on the Second Data Call Submis$on From
        Defense lnformation Systems Agency, Columbia Pike, Arlington, Virginia, to
        Defense Information Systems Agency for Base Realignment and Closure 2005,"
        December 13,2004
        DoD OIG Memorandum, "Audit on the Second Data Call Submission From
        Defense Information Systems Agency, Skyline Building 5, Falls Church,
        Virginia, to Defense lnformation Systems Agency for Base Realignment and
        Closure 2005," December 13,2004
        DoD OIG Memorandum, "Audit on the Second Data Call Submission From
        Defense Information Systems Agency Headquarters, Skyline Building 7, Falls
        Church, Virginia, to Defense lnformation Systems Agency for Base Realignment
        and Closure 2005," December 13,2004
        DoD OIG Memorandum, "Audit on th7,Second Data Call Submission From the
        Defense Information Systems Agency, Hoffman Building One, Alexandria,
        Virginia, to Defense Information Systems Agency for Base Realignment and
        Closure 2005," December 13,2004
        DoD OIG Memorandum, "Audit on the Second Data Call Submission From Joint
        Interoperability Test Command, Indian Head, Maryland, to the Defense
        Information Systems Agency for Base Realignment and Closure 2005,"
        December 6,2004
        DoD OIG Memorandum, "Audit on the Second Data Call Submission From
        Defense lnformation Systems Agency Continental United States, Scott Air Force
        Base, Illinois, to Defense Information Systems Agency for Base Realignment and
        Closure 2005," December 3,2004
        DoD OIG Memorandum, "Audit on the Second Data Call Submission From
        Defense Information Systems Agency, Defense Enterprise Computing Center,
        Mechanicsburg, Pennsylvania, to Defense Information Systems Agency
        Headquarters for Base Realignment and Closure 2005," November 22,2004




'' The city should be listed as Falls Church instead of Arlington
" The site should   be listed as the Defense Spectrum Ofice instead of Defense lnformation Systems
 Agency.
                                                     27
           DoD OIG Memorandum, "Audit on the Second Data Call Submission From Joint
           Interoperability Test Command Headquarters, Fort Huachuca, Arizona, to
           Defense lnformation Systems Agency for Base Realignment and Closure 2005,"
           November 22,2004
           DoD OIG Memorandum, "Audit on the Second Data Call Submission From the
           Defense Enterprise Computing Center Detachment, Denver, Colorado, to the
           Defense Information Systems Agency for Base Realignment Closure 2005,"
           November 19,2004

           DoD OIG Memorandum, "Audit on the Second Data Call Submission From
           Business Management Center, Computer Support - Logistics, and Operations,
           Chambersburg, Pennsylvania, to the Defense Information Systems Agency for
           Base Realignment and Closure 2005," November 19,2004
           DoD OIG Memorandum, "Audit on the Second Data Call Submission From
           Defense lnformation Technology Contracting Organization, Scott Air Force Base,
           Illinois, to Defense lnformation Systems Agency for Base Realignment and
           Closure 2005," November 19,2004
           DoD OIG Memorandum, "Audit on the Second Data Call Submission From Field
           Security Operations, Chambersburg, Pennsylvania, to Defense Information
           Systems Agency for Base Realignment and Closure 2005," November 19,2004
           DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
           From Defense Information Systems Agency Chambersburg to the Defense
           lnformation Systems Agency Feadquarters for Base Realignment and
           Closure 2005," June l0,2004
           DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
           From Defense Information Systems Agency, Columbia Pike, Falls Church,
           Virginia, to Defense lnformation Systems Agency for Base Realignment and
           Closure 2005," June 4,2004

           DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
           From Defense Information Systems Agency, Defense Enterprise Computer Center
           Detachment, Norfolk, to Defense Information Systems Agency Headquarters for
           Base Realignment and Closure 2005," June 4,2004
           DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
           From Defense Information Systems Agency Headquarters, Building 2, Arlington,
           Virginia, to Defense Information Systems Agency for Base Realignment and
           Closure 2005," June 4,2004



I4
     The report includes the two sites that we revisited during the seeond data call.
--    --      ---                                       28
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense lnformation Systems Agency Headquarters, Building 12,
Arlington, Virginia, to Defense lnformation Systems Agency for Base
Realignment and Closure 2005," June 4,2004
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Information Systems Agency Headquarters, Skyline 5, Falls
Church, Virginia, to Defense Information Systems Agency for Base Realignment
and Closure 2005," June 4,2004
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense lnformation Systems Agency, Skyline Building 7, Falls Church,
Virginia, to Defense Information Systems Agency for Base Realignment and
Closure 2005," June 4,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Technical Information Center Headquarters, Fort Belvoir, Virginia,
to Defense Information Systems Agency for Base Realignment and
Closure 2005," June 4,2004
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From the Defense Spectrum Office, Hoflinan Building One, Alexandria, Virginia,
to Defense Information Systems Agency for Base Realignment and
Closure 2005," June 4,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From White House Communications Agency, Washington, D.C., to Defense
Information Systems Agency for Base Realignment and Closure 2005,"
June 4,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Enterprise Computing Center, Saint Louis, Missouri, to Defense
Information Systems Agency for Base Realignment and Closure 2005,"
June 3,2004
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Information System Agency, Defense Enterprise Computer Center
Mechanicsburg to Defense Information Systems Agency Headquarters for Base
Realignment and Closure 2005," June 3,2004

DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Information Systems Agency, Fort Detrick, Maryland, to Defense
lnformation Systems Agency for Base Realignment and Closure 2005,"
June 3,2004

DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Information Systems Agency Headquarters, Building 1, Arlington,
Virginia, to Defense Information Systems Agency for Base Realignment and
Closure 2005," June 3,2004
                                   29                              -
          DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
          From Defense lnformation Systems Agency Pentagon, Arlington, Virginia, to
          Defense lnformation Systems Agency for Base Realignment and Closure 2005,"
          June 3,2004
          DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
          From Defense lnformation Technology Contracting Organization, Scott Air Force
          Base, Illinois, to Defense lnformation Systems Agency for Base Realignment and
          Closure 2005," June 3,2004
          DoD OIG Memorandum, "Audit on the Capcity Analysis Data Call Submission
          from the Joint lnteroperability Test Center, Fort Huachuca, Arizona, to Defense
          lnformation Systems Agency for Base Realignment and Closure 2005,"
          June 3,2004
          DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
          From Defense Enterprise Computing Center Detachment, Jacksonville, Florida, to
          Defense Information Systems Agency for Base Realignment and Closure 2005,"
          June 2,2004
          DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
          From the Defense Enterprise Computing Center Detachment, Warner Robins,
          Georgia, to Defense lnformation Systems Agency for Base Realignment and
          Closure 2005," June 2,2004
          DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
          From Defense Information Systems Agency Interoperability Directorate, Fort
          Monmouth, New Jersey, to Defense Information Systems Agency for Base
          Realignment and Closure 2005," June 2,2004

          DoD OIG Memorandum, "Audit on the Capacity Analysis Data CalI Submission
          From the Computing Services Division Headquarters, Denver, Colorado, to
          Defense lnformation Systems Agency for Base Realignment and Closure 2005,"
          May 27,2004
           DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
           From the Defense Enterprise Computing Center Detachment, Denver, Colorado,
           to Defense lnformation Systems Agency for Base Realignment Closure 2005,"
           May 27,2004

           DoD OIG Memorandum, "Audit on the Capacity Analysis Data CalI Submission
           From the Defense Enterprise Computing Center Detachment, Huntsville,
           Alabama, to Defense Information Systems Agency for Base Realignment and
           Closure 2005," May 27,2004


" Joint   Interoperability Test Center should be listed as Joint lnteroperability Test Command
                                                      30
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Enterprise Computing Center Detachment, San Diego, California,
to Defense lnformation Systems Agency for Base Realignment and
Closure 2005," May 27,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From the Defense Enterprise Computing Center DetachmentJSoftware Support
Office, Montgomery, Alabama, to Defense Information Systems Agency for Base
Realignment and Closure 2005," May 27,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense lnformation Systems Agency Continental United States, Scott Air
Force Base, Illinois, to Defense Information Systems Agency for Base
Realignment and Closure 2005," May 27,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense lnformation Systems Agency Continuity of Operations Test
Facility, Slidell, Louisiana, to Defense Information Systems Agency for Base
Realignment and Closure 2005," May 27,2004

DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From the Joint Interoperability Test Command, Indian Head, to the Defense
Information Systems Agency for Base Realignment and Closure 2005,"
May 27,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From the Joint Spectrum Center, Annapolis, Maryland, to Defense Information
Systems Agency for Base Realignment and Closure 2005," May 27,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Enterprise Computing Center Detachment, San Antonio, to
Defense Information Systems Agency for Base Realignment and Closure 2005,"
May 24,2004
DoD 01G Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense lnformation System Agency, Oklahoma City Defense Enterprise
Computing Center to DISA Headquarters for Base Realignment and
Closure 2005," May 24,2004

DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Enterprise Computing Center Detachment, Dayton, to Defense
Information Systems Agency for Base Realignment and Closure 2005,"
May 19,2004
DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
From Defense Enterprise Computing Center Columbus, to Defense Information
Systems Agency for Base Realignment and Closure 2005," May 14,2004
    DoD OIG Memorandum, "Audit on the Capacity Analysis Data Call Submission
    From the Defense Enterprise Computing Center Detachment, Rock Island, to
    Defense Information Systems Agency for Base ReaIignment and Closure 2005,"
    May 5,2004
    DoD OIG Memorandum, "Audit on the Capacity Analysis Data CalI Submission
    From Defense Enterprise Computing Center, Ogden, to Defense Information
    Systems Agency for Base Realignment and Closure 2005," May 5, 2004


Army Audit Agency
    Army Audit Report Number A-2004-0184-IMT, "Review of Online Data
    Collection Tool: Process Controls," Febmary 20,2004
Appendix E. Report Distribution
Office of the Secretary of Defense
       Director, Base Realignment and Closures (Installations and Environment)


Other Defense Organization
       Director, Defense Information Systems Agency


Non-Defense Federal Organization
       Government Accountability Office '




 Only Government Aecountability Office personnel involved in the BRAC process are to receive the
 report.

                                                 33                             --- .   ~
Team Members
The Department of Defense Ofice of the Deputy Inspector General for Auditing,
Acquisition and Technology Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.
Bruce A. Burton
Deborah L. Culp
Dianna J. Pearson
John Huddleston
Timothy Miller
Celeste McKay
Jeanette Owens
Kiana Silver
Jacqueline Pugh
